No. 20-1203

In the
Supreme Court of the United States
MOOSE JOOCE, ET AL.
Petitioners,
v.
FOOD & DRUG ADMINISTRATION, ET AL.
Respondents.

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33(1)(h), I certify that the Amici Curiae
Brief in Support of the Petition for a Writ of Certiorari complies with the word
limitations in Rule 33(1)(g). It contains 5,896 words, including footnotes, but
excluding sections exempted from the word count by Rule 33(1)(d).
I declare under penalty of perjury that the foregoing is true and correct.

This the 26th day of March 2021.

/s/ J. Gregory Troutman
J. GREGORY TROUTMAN
Counsel of Record
TROUTMAN LAW OFFICE, PLLC.
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
(502) 412-9179
jgtatty@yahoo.com
Attorney for Amici Curiae

